       February 23, 2004




Acquisition
Allegations of the Defense Contract
Management Agency’s Performance
in Administrating Selected Weapon
Systems’ Contracts
(D-2004-054)




This special version of the report has been revised to omit contractor proprietary
data exempt from the mandatory disclosure under the Freedom of Information
Act exemption b.4.


                      Department of Defense
                     Office of Inspector General
  Quality                          Integrity                  Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DSCR                  Defense Supply Center Richmond
GAO                   General Accounting Office
LMASC                 Lockheed Martin Aeronautical Systems Company
          Office of the Inspector General of the Department of Defense
Report No. D-2004-054                                                  February 23, 2004
   (Project No. D2003AB-0017)

              Allegations of the Defense Contract Management
                  Agency's Performance in Administering
                    Selected Weapon Systems’ Contracts

                                 Executive Summary

Who Should Read This Report and Why? Logistics planners and procurement
officials for the C-130, F-22, and C-5 aircraft programs as well as personnel at the
Defense Contract Management Agency should read this report because they oversee,
negotiate, and administer functions at contractor facilities.

Background. This report is the second in a series of reports concerning allegations made
to the Defense Hotline on the Defense Contract Management Agency’s oversight of the
contractor’s performance on the C-130, F-22, and C-5 aircraft. The Defense Contract
Management Agency, formerly the Defense Contract Management Command, is an
independent combat support agency responsible for assessing contractors’
manufacturing, production, and quality assurance processes. This report addresses
allegations related to the pricing of spare parts under the C-5 Program Depot
Maintenance contract (C-5 letter contract), payments made to Lockheed Martin
Aeronautical Systems Company for delivered C-5 spare parts, management of the Risk
Assessment and Management Program, and rotation of administrative contracting
officers within Defense Contract Management Agency.

The allegation consists of four issues:

   •   The Government made duplicate payments on several C-5 spare parts.

   •   The Government paid excessive prices for an aircraft bracket.

   •   Supervisors can change the Risk Assessment and Management Program ratings to
       cover up contractor problems.

   •   The Defense Contract Management Agency rotated administrative contracting
       officers to make the contractor’s life easy and set up the agency for failure.

Results. We did not substantiate the allegations. Government records showed that
duplicate payments were not made to Lockheed Martin Aeronautical Systems Company
for the sample of spare parts we reviewed. We did identify that a clerical error caused an
overpayment of $15,574.68 on one part selected, and officials agreed to take action to
recover the overpayment. Defense Finance and Accounting Service records showed that
the Government has so far paid less than the Government-recommended price for the
aircraft bracket, but a final price has not been negotiated. In addition, although
supervisory officials may change the risk rating in the Risk Assessment and Management
Program, management controls are in place to ensure that the changes are not arbitrary.
Also, although rotations of administrative contracting officers occurred, officials from
system program offices supported the rotations and did not view them as detrimental to
their programs.

Apart from the allegations, we identified that the inventories in the Standard Automated
Materiel Management System were not always accurate because manual payments made
for spare parts were not recorded by individual spare part number in the database. Our
office reported a similar problem in the October 2001 Audit Report No. D-2002-009,
“Valuation of Inventories in the Defense Logistics Agency Standard Automated Materiel
Management System.” The report stated that the values assigned to inventories in
Standard Automated Materiel Management System were not always accurate. The
Director, Defense Logistics Agency Logistics Operations agreed to report inventory
valuation as a weakness in the Defense Logistics Agency’s Annual Statement of
Assurance for FY 2001.

Management Comments. We provided a draft of this report on January 9, 2004. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                                  i

Background                                                                        1

Finding
     Oversight Functions and Pricing of Spare Parts for the C-5 Aircraft at the
        Defense Contract Management Agency in Marietta, Georgia                   4

Appendixes
     A. Scope and Methodology                                                      9
         Prior Coverage                                                            9
     B. Payment Verification for Sample of 16 Spare Parts                         11
     C. Report Distribution                                                       13
Background
    We performed this audit in response to allegations made to the Defense Hotline
    concerning the Defense Contract Management Agency’s (DCMA), formerly the
    Defense Contract Management Command, oversight of the contractor’s
    performance on the C-130, F-22, and C-5 aircraft. This is the second in a series
    of reports addressing the allegations. Specifically, this report addresses
    allegations related to the pricing of spare parts under the C-5 Program Depot
    Maintenance contract (C-5 letter contract); payments made to Lockheed Martin
    Aeronautical Systems Company (LMASC) in Marietta, Georgia, and its successor
    Lockheed Martin Logistics Services in Greenville, South Carolina; the
    management of the Risk Assessment and Management Program; and the rotation
    of administrative contracting officers within DCMA.

    DCMA Oversight and Guidance. DCMA is an independent combat support
    agency responsible for assessing contractors’ manufacturing, production, and
    quality assurance processes. According to the DCMA Directive 1, otherwise
    known as the One Book, buying organizations rely on DCMA to enable them to
    meet readiness requirements, to establish alternative sources to meet logistics
    support requirements, and to select reliable suppliers. The DCMA resident
    offices are co-located at LMASC and Lockheed Martin Logistics Service to
    provide contract oversight.

    The One Book was issued to assist DCMA officials with their contract oversight
    responsibilities. The One Book implements the DCMA policy for the
    performance of contract management functions, which includes applying risk
    management activities to specific defense suppliers under the cognizance of the
    contract management office. The One Book states that risk assessment is the
    process of determining the likelihood of meeting performance, schedule, and cost
    objectives, and the consequences of failure. The DCMA uses the Risk
    Assessment and Management Program to assess risk. The purpose of the risk
    management approach is to plan, assess, monitor, and document risk in
    contractors’ key processes. A DCMA functional specialist is responsible for
    overseeing the Risk Assessment and Management Program to ensure that data
    entry is current, accurate, and complete. A point of contact is responsible for
    overseeing system access, reporting functions, and ensuring that management
    controls are in place.

    DCMA employs administrative contracting officers who are responsible for day-
    to-day contract management. According to the Federal Acquisition Regulation,
    Subpart 42.302, “Contract Administration Functions,” an administrative
    contracting officer’s responsibilities may include ensuring contractual quality
    assurance, facilitating price negotiations, performing technical surveillance, and
    providing notification of inadequate performance on schedule, cost, and technical
    performance on acquisition programs assigned. The contracting officer plays a
    critical role in protecting the Government’s interests during contract performance.

    C-5 Letter Contract. The Defense Supply Center in Richmond, Virginia
    (DSCR), awarded LMASC an indefinite-quantity, 1-year letter contract SPO410-
    98-D-0002 in December 1997 with an option period of 6 months. The contract

                                         1
    the initial materiel acquisition unit cost paid to the contractor. The adjusted
    payment or credit was referred to as a manual payment.

    The Standard Automated Materiel Management System is the on-line computer
    system that processes the technical, distribution, financial, contracting, and
    requirements functions of supply throughout the DLA. The Standard Automated
    Materiel Management System provides information on contracts, purchase data,
    procurement history, vendor identification numbers, stock numbers, delivery
    order numbers, expended quantities, and amounts.


Objectives
    The overall audit objective was to determine whether DCMA management took
    appropriate action on the issues raised in the allegations. Specifically, we
    evaluated whether duplicate payments were made for identified C-5 spare parts,
    excessive prices were paid for an aircraft bracket, the Risk Assessment and
    Management Program was improperly manipulated, and administrative
    contracting officer rotations within DCMA resulted in an adverse effect to the
    Government. See Appendix A for a complete discussion of the audit scope and
    methodology.




                                          3
            Oversight Functions and Pricing of Spare
            Parts for the C-5 Aircraft at the Defense
            Contract Management Agency in
            Marietta, Georgia
            We did not substantiate that the Government made overpayments or
            mismanaged oversight functions at the DCMA facility in Marietta,
            Georgia. Specifically, the complainants alleged that:

                •   The Government made duplicate payments on several spare parts
                    for the C-5 aircraft.

                •   The Government paid excessive prices for an aircraft bracket.

                •   DCMA supervisors could change the Risk Assessment and
                    Management Program ratings of subordinates to cover up
                    contractor problems.

                •   DCMA rotated administrative contracting officers to make the
                    contractor’s life easy and set up the agency for failure.

            Although we did not substantiate the allegations, we identified that a
            clerical error caused an overpayment of $15,574.68 on one invoice.
            Officials at DSCR agreed to seek recovery of the overpayment. We also
            identified that the DSCR inventory valuation was distorted because
            manual payments for spare parts were not properly recorded in the
            Standard Automated Materiel Management System.


Spare Parts Pricing for the C-5 Aircraft
     Allegation 1. The Government made duplicate payments to LMASC for eight
     spare parts under the C-5 letter contract. The alleged duplicate payments were
     based on the complainants’ review of a commercial database called Haystack that
     includes parts information from more than 40 Army, Navy, Air Force and related
     databases.

     Audit Results. We did not substantiate the allegation that the Government made
     duplicate payments for the spare parts. We reviewed the eight spare parts
     identified by the complainants and judgmentally selected an additional sample of
     eight spare parts for payment verification. Total payments made for the selected
     parts were $2.5 million, or 21.7 percent, of the total payments of $11.3 million
     paid on the C-5 letter contract. Appendix B provides a list of the parts, payments
     made, and associated delivery orders reviewed.

     The complainants based this allegation on the contents of Haystack reports. The
     Government and contractors both use the Haystack to research costs in the
     procurement of spare parts. The Haystack reports provided to us by the
                                          4
Risk Assessment and Management Program
     Allegation 3: DCMA supervisors could make changes to the Risk Assessment
     and Management Program and override subordinate ratings included in the Risk
     Assessment and Management Program to cover up potential contract problems.

     Audit Results. DCMA supervisors may change information in the Risk
     Assessment and Management Program. However, we did not substantiate the
     allegation that the supervisors changed the ratings in the Risk Assessment and
     Management Program to cover up potential problems. DCMA employees did
     have varying amounts of access to the Risk Assessment and Management
     Program depending on their position and function. Several functional specialists
     evaluated different contractor processes, provided a rating for the process, and
     documented the basis for the rating. The DCMA management designates a
     supervisor to review the risk ratings, the information contained in the risk
     assessment, documentation to support the conclusion, and the associated risk
     management activities.

     The supervisors do assign an overall rating for performance, schedule, and cost.
     Before they can change a Risk Assessment and Management Program rating,
     however, they must discuss and document their concerns with employees who
     assigned the initial rating. In addition, a single functional specialist for the Risk
     Assessment and Management Program oversees the process and ensures that
     entries into the Risk Assessment and Management Program are current, accurate,
     complete, and supported by sufficient documentation. We did not identify
     instances where supervisors changed the risk ratings or overrode risk assessments
     of the functional specialists.


Rotation of Administrative Contracting Officers
     Allegation 4. DCMA management at LMASC rotated the administrative
     contracting officers to make the contractor’s life easy and set up the DCMA
     organization for failure.

     Audit Results. We did not substantiate the allegation. Although DCMA does
     not have a formal rotation policy, it does move administrative contracting officers
     among different programs at LMASC to diversify their experience and
     perspective. Movement may occur because a customer is displeased with an
     administrative contracting officer’s performance, because of personality conflicts,
     for employee development, or to match administrative contracting officer skills
     with the requirements of the program. We interviewed program officials from the
     C-5, C-130, and F-22 system program offices. In their opinion, the rotation of the
     administrative contracting officers responsible for programs did not have negative
     effects on contract administration. A program official from the C-130 program
     office stated that the administrative contracting officer rotations were beneficial
     because they prevented the administrative contracting officer from getting too
     close to the contractor. A C-5 program official stated that the movement of
     administrative contracting officers was a positive and career-broadening

                                           6
    experience. Although DCMA management did rotate administrative contracting
    officers among the C-5, C-130, and F-22 programs, we determined that the
    rotations did not have adverse effects on the contract administration of the
    programs.


Manual Payments and Inventory Valuation
    Under the C-5 letter contract signed in December 1997, LMASC would be paid
    the materiel acquisition unit cost for parts that it delivered until final negotiation
    of a price. Once the price was negotiated, a second payment (referred to as a
    manual payment) or credit would be paid to LMASC for the difference between
    the materiel acquisition unit cost and the negotiated price. DSCR officials
    explained that the initial payments made by DFAS were posted in the Standard
    Automated Materiel Management System. However, the manual payments were
    not posted in the Standard Automated Materiel Management System by
    individual part number. Accordingly, the unit price history for parts that had
    manual payments was misstated in the Standard Automated Materiel Management
    System. In total, LMASC was paid approximately $2 million in manual
    payments; therefore, the DSCR inventory valuation in the Standard Automated
    Materiel Management System for those spare parts is incorrect because the
    manual payments were omitted from the unit price history for each spare part
    acquired under the C-5 letter contract.

    We issued Report No. D-2002-009, “Valuation of Inventories in the Defense
    Logistics Agency Standard Automated Materiel Management System,” on
    October 22, 2001, which stated that the values assigned to inventories in the
    Standard Automated Materiel Management System were not always accurate.
    Specifically, DLA reported $9.1 billion as the inventory value in the Standard
    Automated Materiel Management System at the end of FY 1999; however,
    $398 million was inaccurately valued because DLA had not established adequate
    procedures to ensure that the inventory was properly valued based on the latest
    purchase price information. As a result, the values of the inventory items
    maintained in the Standard Automated Materiel Management System could not be
    relied on to support the inventory amount on future DLA financial statements or
    to support the prices charged to customers. The report recommended that the
    Director, DLA establish an oversight process to identify and correct inaccurate
    acquisition costs at DLA inventory control points as reported in Standard
    Automated Materiel Management System. DLA agreed to report inventory
    valuation as a weakness in Defense Logistics Agency’s Annual Statement of
    Assurance for FY 2001. Because that report already addressed the same problem
    that we identified and because the time period was identical, we are not making a
    recommendation in this report.


Conclusion
    We did not substantiate that the DFAS made overpayments on spare parts, that
    DCMA supervisors changed the ratings on the Risk Assessment and Management

                                          7
Program to cover up potential problems, or that DCMA administrative contracting
officers were rotated to make the contractor’s life easy at the DCMA facility in
Marietta, Georgia. However, we identified a clerical error that caused an
overpayment of $15,574 for a spare part. DSCR officials agreed to collect the
overpayment. We also identified an understatement of the inventory value in the
Standard Automated Materiel Management System, which was reported in a prior
audit report.




                                   8
Appendix A. Scope and Methodology
    We performed the audit to examine allegations made to the Defense Hotline that
    duplicative payments were made to LMASC, that a C-5 spare part was
    overpriced, that DCMA management overrode lower level employees’ input
    within the Risk Assessment and Management Program, and that DCMA
    administrative contracting officers were rotated to make the contractor’s life easy
    and set up the DCMA organization for failure.

    We reviewed documents dated from December 1997 through June 2003. We
    reviewed policies for the Risk Assessment and Management Program and
    administrative contracting officer rotations, and applicable criteria for pricing the
    C-5 letter contract. We discussed the allegations with the complainants. We
    reviewed files for the C-5 letter contract and interviewed officials from DCAA,
    DCMA, DFAS and DSCR. We visited DCAA and DCMA in Marietta, Georgia;
    DSCR in Richmond, Virginia; and DFAS in Columbus, Ohio.

    From DFAS, we obtained and reviewed the Funds History Inquiry report showing
    the total obligation expenditures to verify whether payments were made only once
    for the eight parts. We also reviewed the funds history for eight additional
    judgmentally selected parts. For the 16 selected parts, we reviewed copies of
    DLA memorandums made available by DLA. We did not verify the quantity of
    parts shipped by the contractor and received by the Government because it was
    not pertinent to the issues alleged. We also could not review the reasonableness
    of the prices negotiated for the 16 parts because the administrative contracting
    officer at DCMA, Marietta, Georgia, did not retain supporting documents.

    We performed this audit from February 2003 through November 2003 in
    accordance with generally accepted government auditing standards. We did not
    review the management control program because the audit scope was limited to
    the allegations of mismanagement and overpayment for C-5 spare parts.

    Use of Computer-Processed Data. We used computer-processed data from the
    Standard Automated Materiel Management System and the Haystack System.
    The Funds History Inquiry report is generated by the Standard Automated
    Materiel Management System. We did not test the general and application
    controls in the Standard Automated Materiel Management System or the
    Haystack.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk area.


Prior Coverage
    During the last 5 years, the General Accounting Office (GAO), the Inspector
    General of the Department of Defense, and the Air Force Audit Agency have
    issued five reports discussing C-5 spare parts. Unrestricted GAO reports can be
                                          9
      accessed over the Internet at http://www.gao.gov. Unrestricted Inspector General
      of the Department of Defense (IG DoD) reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-03-684-R, “Defense Inventory: Air Force Item Manager
      Views of Repair Parts Issues Consistent With Issues Reported in the Past,”
      May 21, 2003

      GAO Report No. GAO-01-693-T, “Military Aircraft: Cannibalizations Adversely
      Affect Personnel and Maintenance,” May 22, 2001

IG DoD
      IG DoD Report No. D-2002-009, “Valuation of Inventories in the Defense
      Logistics Agency Standard Automated Materiel Management System,”
      October 22, 2001

      IG DoD Report No. D-2003-115, “Allegations Concerning the Administration of
      Contracts for Electronic Flight Instruments on the C-130H Aircraft,”
      June 30, 2003

Air Force
      Air Force Audit Agency Report No. F2002-0003-C06100, “C-5 Aircraft Engine
      Replacement Requirements,” March 22, 2002




                                         10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform



                                          13
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Bruce A. Burton
Rudolf Noordhuizen
Mary A. Hoover
Paul R. Glenn
Jennifer L. Jezewski
Jacqueline N. Pugh
Ann A. Ferrante




                                   15
